No.

IN THE
SUPREME COURT OF THE UNITED STATES

CLINT RAYMOND WEBB - PETITIONER
vs.
WYOMING DEPARTMENT OF CORRECTIONS
MEDIUM INSTITUTION WARDEN, ET AL - RESPONDENT(S)
PROOF OF SERVICE
I, Clint Raymond Webb, do swear or declare that on this date, June 10, 2021,
as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as followsClerk of the Court, Supreme Court of the United States, One First Street, NE,
Washington, D.C. 20543, (202) 479-3000! Jenny Lynn Craig, Wyoming Attorney
General’s Office, Criminal Division, 2320 Capitol Avenue, Cheyenne, WY 82002,
(307) 777-7977.
I declare under penalty of perjury that the foregoing i;
Executed on June 10, 2021.

n and correct.

ClintTR. (yebb #30342

